       IMPLEMENTATION OF A COST-ACCOUNTING SYSTEM FOR
         VISIBILITY OF WEAPON SYSTEMS LIFE-CYCLE COSTS


Report No. D-2001-164                           August 1, 2001




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil/audit/reports or contact the Secondary Reports
  Distribution Unit of the Audit Followup and Technical Support Directorate at
  (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax
  (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ABC                   Activity-Based Cost
ABC/M                 Activity-Based Cost and Activity-Based Management
AFTOC                 Air Force Total Ownership Cost
CFO                   Chief Financial Officer
DLA                   Defense Logistics Agency
FFMIA                 Federal Financial Management Improvement Act
FMFIA                 Federal Managers’ Financial Integrity Act
GMRA                  Government Management Reform Act
GPRA                  Government Performance and Results Act
OMB                   Office of Management and Budget
OSMIS                 Operating and Support Management Information System
PWC                   PricewaterhouseCoopers
SFFAS                 Statement of Federal Financial Accounting Standards
VAMOSC                Visibility and Management of Operation and Support Costs
                       Office of the Inspector General, DoD
Report No. D-2001-164                                                    August 1, 2001
   (Project No. D2001AE-0063)

              Implementation of a Cost-Accounting System for
               Visibility of Weapon Systems Life-Cycle Costs

                                Executive Summary

Introduction. The lack of a common, robust cost-accounting process is one of the
biggest obstacles to controlling and managing the cost of weapon systems for their
useful life. Existing DoD accounting systems neither communicate with each other
effectively nor organize program information in a way that is most useful to
management. As a result, the DoD accounting systems provide only limited insight
into the total cost of buying, operating, maintaining, and disposing of DoD inventories.
The DoD Acquisition Reform Goal 10 required DoD to define requirements and
establish an implementation plan for a cost-accounting system that provides routine
visibility into weapon system life-cycle costs through activity-based costing and
management. The system must deliver timely, integrated data for management
purposes to permit understanding of total weapon costs, provide a basis for estimating
costs of future systems, and feed other tools for life-cycle cost management.

Objectives. The primary audit objective was to evaluate implementation of a
cost-accounting process for weapon systems. Specifically, we determined whether
DoD had defined requirements, established an implementation plan, and begun
implementing a cost-accounting system. Additionally, we determined whether the
planned accounting system satisfies the requirement in the Statement of Federal
Financial Accounting Standards No. 4, “Managerial Cost Accounting Concepts and
Standards for the Federal Government,” July 31, 1995, for DoD to accumulate and
report the cost of its activities on a regular basis for management information purposes.

Audit Results. Although the Secretary of Defense reported to the Vice President, on
August 8, 2000, that DoD was implementing plans for a cost-accounting process for
weapon systems, DoD did not establish a standardized cost-accounting system to
control and reduce weapon system life-cycle costs and to make management decisions,
as described in DoD Acquisition Reform Goal 10 and in the Statement of Federal
Financial Accounting Standards No. 4. As a result, DoD does not have a
cost-accounting process for weapon system life-cycle costs that:

       •   delivers timely, integrated data on total weapon-system costs for
           management purposes;

       •   provides a basis for estimating costs of future systems and a tool for
           life-cycle cost management;

       •   meets Government Performance and Results Act goals; and

       •   enables management to include weapon-system life-cycle costs in financial
           statements.

See the Finding section for a discussion of the audit results.
Summary of Recommendations. We recommend that the Under Secretary of Defense
for Acquisition, Technology, and Logistics define cost-accounting requirements for
weapon system life-cycle costs and that the Under Secretary of Defense (Comptroller)
establish and implement a DoD-wide cost-accounting system for weapon system
life-cycle costs.

Management Comments. We received comments from the Liaison Team Leader,
Defense Logistics Agency, who, although not required to comment, concurred with the
report. A discussion of the management comments is in the Finding section of the
report, and the complete text is in the Management Comments section.

Audit Response. Because the Under Secretary of Defense for Acquisition,
Technology, and Logistics and the Under Secretary of Defense (Comptroller) did not
respond to a draft of this report issued April 20, 2001, we request that they provide
comments on this final report by August 31, 2001.




                                           ii
Table of Contents

Executive Summary                                                      i


Introduction
     Background                                                        1
     Objectives                                                        1

Finding
     Establishing a Cost-Accounting System for Weapon System
       Life-Cycle Costs                                                2

Appendixes
     A. Audit Process
          Scope and Methodology                                        9
          Prior Coverage                                              10
     B. Definitions of Technical Terms                                11
     C. Cost-Accounting Standards, Reporting Cost Information,
          Implementing a Cost-Accounting System, and Comptroller
          Responsibilities                                            12
     D. Under Secretary of Defense for Acquisition, Technology, and
          Logistics Memorandum                                        14
     E. Developing DoD Cost-Accounting Requirements                   16
     F. Report Distribution                                           19
Management Comments
     Defense Logistics Agency                                         21
Background
     DoD Acquisition Reform Goal 10. The lack of a common, robust
     cost-accounting process is one of the biggest obstacles to controlling and
     managing the cost of weapon systems for their useful life. Existing DoD
     accounting systems neither communicate with each other effectively nor
     organize program information in a way that is most useful to management. As a
     result, they provide only limited insight into the total cost of buying, operating,
     maintaining, and disposing of DoD inventories. DoD Acquisition Reform
     Goal 10 required DoD to define requirements and establish an implementation
     plan for a cost-accounting system that provides routine visibility into weapon
     system life-cycle costs through activity-based costing and management. The
     system must deliver timely, integrated data for management purposes to permit
     understanding of total weapon costs, provide a basis for estimating costs of
     future systems, and feed other tools for life-cycle cost management.
     Appendix B provides definitions of technical terms used in this report.

     Statement of Federal Financial Accounting Standards. The Statement of
     Federal Financial Accounting Standards (SFFAS) No. 4, “Managerial Cost
     Accounting Concepts and Standards for the Federal Government,” July 31,
     1995, provides managerial cost-accounting concepts and standards intended to
     provide reliable and timely information on the full cost of Federal programs,
     their activities, and outputs. SFFAS No. 4 states that managerial cost
     accounting is an essential element of proper financial planning, control, and
     evaluation of any organization and is a basic part of a financial management
     system in that it supports and provides data on a regular basis for budgetary and
     financial accounting functions.

     Federal Accounting Standards Advisory Board. The Federal Accounting
     Standards Advisory Board Report, “Overview of Federal Accounting Concepts
     and Standards,” December 31, 1996, addressed the reporting concepts and
     accounting standards needed to effectively meet the financial management
     improvement goals of the Chief Financial Officers Act of 1990 and to support
     the strategic planning and performance measurement requirements of the
     Government Performance and Results Act of 1993.

Objectives
     The primary audit objective was to evaluate implementation of a cost-accounting
     process for weapon systems. Specifically, we determined whether DoD had
     defined requirements, established an implementation plan, and begun
     implementing a cost-accounting system. Additionally, we determined whether
     the planned accounting system satisfies the requirement in the SFFAS No. 4 for
     DoD to accumulate and report the cost of its activities on a regular basis for
     management information purposes. See Appendix A for a discussion of the
     audit scope and methodology, and prior coverage related to the audit objectives.




                                          1
           Establishing a Cost-Accounting System
           for Weapon System Life-Cycle Costs
           Although the Secretary of Defense reported to the Vice President, on
           August 8, 2000, that DoD was implementing plans for a cost-accounting
           process for weapon systems, DoD did not establish a standardized
           cost-accounting system to control and reduce weapon system life-cycle
           costs and to make management decisions, as described in DoD
           Acquisition Reform Goal 10 and in the Statement of Federal Financial
           Accounting Standards No. 4. This condition occurred because the Under
           Secretary of Defense for Acquisition, Technology, and Logistics did not
           define cost-accounting requirements for weapon system life-cycle costs
           and provide those requirements to the Under Secretary of Defense
           (Comptroller) for incorporation into a DoD-wide standardized
           cost-accounting system. As a result, DoD does not have a
           cost-accounting process for weapon system life-cycle costs that:

                  •   delivers timely, integrated data on total weapon system costs
                      for management purposes;

                  •   provides a basis for estimating costs of future systems and a
                      tool for life-cycle cost management;

                  •   meets Government Performance and Results Act goals; and

                  •   enables management to include weapon-system life-cycle costs
                      in financial statements.

Government Cost-Accounting Policy
    The following provides an overview on cost-accounting standards, reporting
    cost information, establishing and implementing a cost-accounting system,
    and Comptroller responsibilities concerning managerial cost accounting.
    Appendix C provides a detailed discussion of the policy.

    Cost-Accounting Standards Policy. The policy requires reporting entities to
    perform at least a certain minimum level of cost accounting and provide a basic
    amount of cost-accounting information necessary to accomplish the objectives
    associated with planning, decisionmaking, and reporting.

    Reporting Cost-Information Policy. The policy provides for developing and
    reporting cost information and for developing strategic plans and performance
    goals to measure and report on performance compared to goals; requires
    agencywide financial statements; and prescribes policies and standards for
    executive departments and agencies to follow in developing, operating,
    evaluating, and reporting on financial management systems.

    Establishing and Implementing a Cost-Accounting System Policy. The
    policy stresses integrated information systems; mandates that agencies

                                        2
        implement and maintain financial management systems; requires agency heads
        to establish systems and controls that provide reasonable assurance concerning
        obligations, costs, funding, property, and other assets; and requires that
        revenues and expenditures are properly recorded and accounted for.

        Comptroller Responsibilities. The policy requires the Under Secretary of
        Defense (Comptroller) to develop and maintain an integrated DoD accounting
        and financial management system, including financial reporting and management
        controls.

Weapon System Cost-Accounting Requirements
        DoD did not establish a standardized cost-accounting system to control and
        reduce weapon system life-cycle costs and to make management decisions, as
        described in DoD Acquisition Reform Goal 10 and in the Statement of Federal
        Financial Accounting Standards No. 4. However, on August 8, 2000, the
        Secretary of Defense reported otherwise to the Vice President. The lack of a
        standardized cost-accounting system occurred because the Under Secretary of
        Defense for Acquisition, Technology, and Logistics did not define
        cost-accounting requirements for weapon system life-cycle costs and provide
        those requirements to the Under Secretary of Defense (Comptroller) for
        incorporation into a DoD-wide standardized cost-accounting system.

        Defense Acquisition Reform Goal 10 Direction. On July 8, 1999, the Under
        Secretary of Defense for Acquisition, Technology, and Logistics, in a
        memorandum, “Defense-Wide Implementation of Activity Based Management,”
        provided direction on implementing activity-based cost and activity-based
        management (ABC/M) to the Defense agencies and the Military Departments
        (see Appendix C). The memorandum discussed areas of agreement concerning
        declining resources, ABC/M attributes, visibility and management of operation
        and support costs (VAMOSC), and developing and implementing ABC/M plans
        as discussed below.

                Declining Resources. The memorandum stated that senior DoD
        acquisition, financial, and logistics executives agreed that “declining resources
        are providing significant incentives to manage better all costs.”

                ABC/M Attributes. In the memorandum, the senior DoD executives
        also agreed that “ABC/M is most appropriately pursued on a broad
        department-wide basis, rather than being narrowly focused on ‘weapon system
        life-cycle costs’ only.”

                VAMOSC. The senior DoD executives agreed that improvements in
        VAMOSC should satisfy the near-term need for visibility into weapon system
        life-cycle cost.* The following describes the Military Departments’ VAMOSC
        systems.
*
 The DoD Cost Analysis Improvement Group initiated the VAMOSC program to provide operating and
support costs for major weapon systems. Generally, the Military Departments’ VAMOSC systems do
not meet SSFAS No. 4 financial reporting requirements. The Defense Logistics Agency does not have a
VAMOSC system.

                                                 3
               Army Operating and Support Management Information
System. The Operating and Support Management Information System (OSMIS)
is the Army’s implementation of the VAMOSC program, which the Army Cost
and Economic Analysis Center manages. The OSMIS is the Army’s source of
historical operating and support cost information for more than 500 weapon
systems deployed in tactical units.

                Navy VAMOSC. The Naval Center for Cost Analysis manages
the Navy’s implementation of the VAMOSC program. The Navy VAMOSC
collects data for Navy and Marine Acquisition Category I weapon systems and
some Acquisition Category II weapon systems, including all ships in the Navy,
approximately 16 percent of shipboard systems, and virtually all aviation and
aviation-related weapon systems except for research, development, test and
evaluation aircraft. The data collected includes costs for staffing, fuel,
ordnance, maintenance, modernization, other support, and training.

               Air Force Total Ownership Cost. The Air Force Total
Ownership Cost (AFTOC) program is the Air Force’s implementation of the
VAMOSC program, which the Air Force Cost Analysis Agency manages. The
AFTOC collects cost data on acquisition, operations, and sustainment for
aircraft and space systems and cost data on selected command, control,
communication, computers, and intelligence systems; missiles and munitions;
and engines. The AFTOC is a relatively new system that replaced the
Air Force VAMOSC system that had been in use from 1980 through 1998.

        Developing and Implementing ABC/M Plans. Because of the
agreements concerning declining resources, ABC/M attributes, and VAMOSC,
the Under Secretary of Defense for Acquisition, Technology, and Logistics did
not develop or establish cost-accounting requirements for weapon system
life-cycle costs. Instead, the Under Secretary directed the Military Departments
and the Defense Logistics Agency to:

              •   implement ABC/M in maintenance depots and in other areas
                  where cost-management improvement can be expected;

              •   prepare ABC/M implementation plans by October 6, 1999,
                  and provide those plans to him and the Under Secretary of
                  Defense (Comptroller); and

              •   prepare quarterly written status reports on their ABC/M
                  implementation and present the reports to him and the Under
                  Secretary of Defense (Comptroller).

Further, the Under Secretary of Defense for Acquisition, Technology, and
Logistics stated that the acceptance of the ABC/M implementation plans by the
Defense Systems Affordability Council Executive Committee would constitute
completion of the DoD Acquisition Reform Goal 10 to “define requirements and
establish an implementation plan.” The Under Secretary also authorized the
Military Departments to make improvements to their VAMOSC systems.

Military Department and Defense Logistics Agency Actions. As directed by
the Under Secretary of Defense for Acquisition, Technology, and Logistics, the

                                    4
Military Departments and the Defense Logistics Agency briefed the Defense
Systems Affordability Council Executive Committee on their ABC/M plans that
the Committee approved even though the plans did not include a cost-accounting
system that provided routine visibility into weapon system life-cycle costs.

        Army. On November 16, 1999, the Army Cost and Economic Analysis
Center briefed the Defense Systems Affordability Council Executive Committee
on the Army Strategic Cost Management/Activity-Based Cost (ABC)
Implementation Plan. In the plan, the Army would implement cost
management, using ABC techniques, and assess whether ABC/M would be
appropriate for cost measurement in 11 areas, including depot maintenance
operations, supply management, information support, base operations, research
and development laboratories, and the acquisition and contracting processes.
However, specific weapon system cost-accounting requirements were not part of
the plan. The Army intends to fully implement the plan within 3 years after the
Defense Systems Affordability Council Executive Committee approved the plan
on November 16, 1999.

        Navy. On January 20, 2000, the Office of the Deputy Chief of Naval
Operations (Logistics) briefed the Defense Systems Affordability Council
Executive Committee and stated that the naval shipyards had employed ABC
techniques since 1992 and that the Naval Air Systems Command sponsored an
ABC effort in 1997. In addition to those ongoing efforts, the Navy planned to
link ABC/M with enterprise resource planning at maintenance depots and to
establish five new pilot ABC efforts to begin by January 2001. However,
specific weapon system requirements were not part of the Navy plan. The
Defense Systems Affordability Council Executive Committee approved the Navy
ABC plan on January 20, 2000.

        Air Force. On January 20, 2000, the Office of the Assistant Secretary
of the Air Force (Manpower, Reserve Affairs, Installations, and Environment)
briefed the Defense Systems Affordability Council Executive Committee
concerning the Air Force plan that consisted of a timeline for implementing
ABC in Air Force commands. However, specific weapon system requirements
were not part of the plan. The Defense Systems Affordability Council
Executive Committee approved the Air Force plan on January 20, 2000.

        Defense Logistics Agency. On November 16, 1999, the Defense
Logistics Agency (DLA) briefed its ABC/M implementation plan to the Defense
Systems Affordability Council Executive Committee, which approved the plan
on that date. DLA was actively engaged in establishing ABC/M in the DLA
Headquarters and field activities. However, the Goal 10 initiative did not
materially affect the ABC/M effort at DLA because specific weapon system
cost-accounting requirements were not part of the DLA plan.

Actions Taken to Meet Defense Acquisition Reform Goal 10. On August 8,
2000, the Secretary of Defense issued a letter to the Vice President, the fourth




                                    5
in a planned series of six semiannual reports, that addressed actions taken to
meet the Acquisition Reform Goals. With regard to DoD Acquisition Reform
Goal 10, the Secretary of Defense reported:

       •   DoD had developed plans and was implementing the plans for a
           cost-accounting process that provides routine visibility into weapon
           system life-cycle costs through activity-based costing and
           management.

       •   The DoD goal was to develop a plan for a new DoD-wide
           cost-accounting process by the year 2000.

       •   The Military Departments and Defense agencies prepared
           implementation plans for the directed new cost-accounting process
           and began implementing the new process in FY 2000 after Defense
           Systems Affordability Council approval.

Comptroller Cost-Accounting Activities. DoD Directive 5118.3, “Under
Secretary of Defense (Comptroller) (USD(C))/Chief Financial Officer (CFO),
Department of Defense,” January 6, 1997, requires that the Under Secretary of
Defense (Comptroller) develop and maintain an integrated DoD accounting and
financial management system, including financial reporting and management
controls. Cost-accounting systems are considered part of an integrated
accounting and financial management system. The Under Secretary of Defense
(Comptroller) took initial, limited steps to develop and integrate cost accounting
into the DoD accounting and financial management system. However, before
the Under Secretary of Defense (Comptroller) can develop and maintain an
integrated cost-accounting system for weapon system life-cycle cost
management, the Under Secretary of Defense for Acquisition, Technology, and
Logistics must provide the Under Secretary of Defense (Comptroller) with
requirements for the cost-accounting system to comply with DoD Acquisition
Reform Goal 10 and SFFAS No. 4. However, as of April 2001, the Under
Secretary of Defense for Acquisition, Technology, and Logistics had not defined
cost-accounting requirements for weapon system life-cycle costs and provided
those requirements to the Under Secretary of Defense (Comptroller) for
incorporation into a DoD-wide, standardized cost-accounting system.

        SFFAS No. 4. SFFAS No. 4 contains cost-accounting concepts and
standards for determining the cost of an entity’s activities, programs, and
outputs. Implementation of the standard will provide the DoD with relevant and
reliable information relating cost to outputs, which would improve operational
economy and efficiency. The efforts of the DoD and Military Departments to
develop cost-accounting systems and ABC/M techniques for weapon systems
must conform to SFFAS No. 4, effective September 30, 1997.

              •   Reporting entities must perform at least a certain minimum
                  level of cost accounting and provide a basic amount of
                  cost-accounting information necessary to accomplish the
                  objects associated with planning, decisionmaking, and
                  reporting.



                                    6
                  •   Cost-accounting systems should collect cost information by
                      responsibility segments; measure the full cost of outputs;
                      provide information for performance measurement; integrate
                      cost accounting and general financial accounting; provide
                      appropriate, precise information; and accommodate special
                      cost-management needs.

                  •   If cost-accounting systems, other cost-finding techniques,
                      studies, or analyses comply with managerial cost-accounting
                      standards, they meet the requirements of SFFAS No. 4.

            Under Secretary of Defense (Comptroller) Requirements
    Development. In FY 2001, the Under Secretary of Defense (Comptroller)
    plans to contract for developing DoD cost-accounting requirements as an initial
    step in developing and implementing a DoD cost-accounting system that meets
    Federal standards (see Appendix E). The weapon-system acquisition
    community, including the Under Secretary of Defense for Acquisition,
    Technology, and Logistics; the Defense agencies; and the Military Departments,
    are not involved in the efforts of the Under Secretary of Defense (Comptroller)
    to develop and implement a DoD cost-accounting system. According to the
    Under Secretary of Defense (Comptroller), the weapon-system acquisition
    community needs to develop cost-accounting requirements for weapon-system
    life-cycle costs before the Under Secretary of Defense (Comptroller) can
    develop a cost-accounting system for weapon system life-cycle costs.

    Cost-Accounting System for Weapon System Life-Cycle Costs Previously
    Addressed. Inspector General, DoD, Audit Report No. 99-012, “Use of Funds
    Appropriated for Major Defense Systems,” October 14, 1998, previously
    addressed the lack of a cost-accounting system for weapon system life-cycle
    costs. The report concluded that the DoD should establish a cost-accounting
    system, including standard cost categories, to track and report program costs.
    The Inspector General did not make a recommendation because the Director,
    Acquisition Program Integration, and the Director, Program Analysis and
    Evaluation, along with the Deputy Under Secretary of Defense (Logistics), were
    working on achieving DoD Acquisition Reform Goal 10, which requires DoD to
    define requirements and establish an implementation plan for a cost-accounting
    system that provides routine visibility into weapon system life-cycle costs.

Effect of Continuing Without a Standardized Cost-Accounting
  System for Weapon System Life-Cycle Costs
    Without a standardized cost-accounting system to control and reduce weapon
    system life-cycle costs, DoD cannot deliver timely, integrated weapon system
    life-cycle cost data that permit an understanding of total weapon system costs,
    that provides a basis for estimating costs of future systems and a tool for
    life-cycle cost management, that meets Government Performance and Results
    Act goals, and that enables management to address weapon system life-cycle
    costs in financial statements.



                                        7
Conclusion
    To ensure compliance with the financial management criteria and to achieve the
    objectives of DoD Acquisition Reform Goal 10 and SFFAS No. 4, the Under
    Secretary of Defense for Acquisition, Technology, and Logistics needs to define
    and provide cost-accounting requirements for weapon system life-cycle costs to
    the Under Secretary of Defense (Comptroller). Because the Under Secretary of
    Defense (Comptroller) is developing DoD cost-accounting requirements, now is
    an opportune time for the Under Secretary of Defense for Acquisition,
    Technology, and Logistics to provide those requirements to the Comptroller.
    The cost-accounting requirements for weapon system life-cycle costs would be
    an initial step in developing an integrated DoD-wide cost-accounting system that
    meets financial management criteria.

Management Comments on the Finding
    Although not required to comment, the Liaison Team Leader, Defense Logistics
    Agency, concurred with the report. For the complete text of the Liaison Team
    Leader’s comments, see the Management Comments section of this report.

Recommendations
    1. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics define cost-accounting requirements for weapon
    system life-cycle costs to achieve DoD Acquisition Reform Goal 10 and provide
    those requirements to the Under Secretary of Defense (Comptroller).

    2. We recommend that the Under Secretary of Defense (Comptroller) establish
    and implement a DoD-wide cost-accounting system for weapon system life-cycle
    costs to achieve DoD Acquisition Reform Goal 10 after the Under Secretary of
    Defense for Acquisition, Technology, and Logistics defines cost-accounting
    requirements for weapon system life-cycle costs.

Management Comments Required
    As of the date of this final report, we had not received comments from the
    Under Secretary of Defense for Acquisition, Technology, and Logistics and the
    Under Secretary of Defense (Comptroller) to a draft of this report issued
    April 20, 2001. Therefore, we request that they provide comments on this final
    report.




                                       8
Appendix A. Audit Process

Scope and Methodology
    We reviewed documentation dated from September 1982 to April 2001. We
    interviewed and obtained documentation from the staffs of the Office of the
    Under Secretary of Defense for Acquisition, Technology, and Logistics; the
    Under Secretary of Defense (Comptroller); the Assistant Secretary of the Army
    (Acquisition, Logistics, and Technology); the Assistant Secretary of the Army
    (Financial Management and Comptroller); the Deputy Chief of Naval
    Operations (Logistics); the Assistant Secretary of the Air Force (Financial
    Management and Comptroller); and the Director, Defense Logistics Agency.
    Because the Under Secretary of Defense for Acquisition, Technology, and
    Logistics had issued a memorandum, “Defense-Wide Implementation of Activity
    Based Management,” July 8, 1999, directing the Defense agencies and the
    Military Departments to implement ABC/M, we focused the audit on the areas
    of declining resources, ABC/M attributes, VAMOSC, and developing and
    implementing ABC/M plans addressed in the memorandum.

    Audit Type, Dates, and Standards. We conducted this financial related audit
    from January through April 2001 in accordance with auditing standards issued
    by the Comptroller General of the United States, as implemented by the
    Inspector General, DoD. We did our work in accordance with generally
    accepted Government auditing standards except that we were unable to obtain an
    opinion on our system of quality control. The most recent external quality
    control review was withdrawn on March 15, 2001, and we will undergo a new
    review.

    Use of Computer-Processed Data. We did not rely on computer-processed
    data to perform this audit.

    Contacts During the Audit. We visited or contacted individuals and
    organizations within the DoD. Further details are available on request.

    DoD-Wide Corporate Level Government Performance and Results Act
    Coverage. In response to the Government Performance and Results Act, the
    Secretary of Defense annually establishes DoD-wide corporate level goals,
    subordinate performance goals, and performance measures. This report pertains
    to achievement of the following corporate level goal and subordinate
    performance goal.

           • FY 2001 DoD Corporate Level Goal 2: Prepare now for an
             uncertain future by pursuing a focused modernization effort that
             maintains U.S. qualitative superiority in key warfighting capabilities.
             Transform the force by exploiting the Revolution in Military Affairs,
             and reengineer the Department to achieve a 21st century
             infrastructure.



                                       9
           • FY 2001 Subordinate Performance Goal 2.4: Meet combat forces’
             needs smarter and faster, with products and services that work better
             and cost less, by improving the efficiency of the DoD acquisition
             processes.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in the DoD. This report provides coverage
    of the Defense Weapons Systems Acquisition high-risk area.

Prior Coverage
    During the last 5 years, the General Accounting Office and the Inspector
    General, DoD, have issued reports that reference either weapon-system cost
    accounting or Military Department efforts to reduce and control operating and
    support costs.

    General Accounting Office
    GAO Report No. NSIAD-00-197 (OSD Case No. 2064-707445), “Defense
    Acquisitions, Higher Priority Needed for Army Operating and Support Cost
    Reduction Efforts,” September 29, 2000

    GAO Report No. NSIAD-00-165 (OSD Case No. 2032-707384), “Defense
    Acquisitions, Air Force Operating and Support Cost Reductions Need Higher
    Priority,” August 29, 2000

    Inspector General, DoD
    Inspector General, DoD, Report No. D-2001-085, “The 2000 DoD Financial
    Management Improvement Plan,” March 19, 2001

    Inspector General, DoD, Report No. 99-012, “Use of Funds Appropriated for
    Major Defense Systems,” October 14, 1998




                                       10
Appendix B. Definitions of Technical Terms
   Acquisition Category. An acquisition category is an attribute of an acquisition
   program that determines the program’s level of review, decision authority, and
   applicable procedures. The acquisition categories consist of I, major Defense
   acquisition programs; IA, major automated information systems; II, major
   systems; and III, all other acquisition programs. Acquisition Category I
   programs have two sub-categories: ID and IC. Acquisition IA programs also
   have two sub-categories: IAM and IAC.

   Activity-Based Costing. Activity-base costing is a set of managerial accounting
   methods used to identify and describe cost objects and activities, and the amount
   of resources the activities consume. A cost object is the reason an activity
   exists, that is, one or more products, services, projects, or customers. An
   activity is a unit of work that has identifiable starting and ending points, that
   consumes resources (inputs) and produces outputs. In ABC, an activity is
   synonymous with a simple process, as the latter term is used in quality
   management and reengineering.

   Activity-Based Management. Activity-based management is business
   management in which process owners have the responsibility and authority to
   control and improve operations, and that uses activity-based costing methods.

   Cost Accounting. Cost accounting is a system of accounting analysis and
   reporting on costs of production of goods or services, or of operation of
   programs, activities, functions or organizational units. The system may also
   embrace cost estimating, determination of cost standards based on engineering
   data, and comparison of actual and standard costs for the purpose of aiding cost
   control.

   Cost-Accounting System. A cost-accounting system is a continuous and
   systematic cost-accounting process designed to accumulate and assign costs to a
   variety of objects routinely or as desired by the management.

   Life-Cycle Cost. Life-cycle cost is the total cost to the government of
   acquisition and ownership of that system over its useful life. In includes the
   cost of development, acquisition, operating, support, and, where applicable,
   disposal.

   Operating and Support Costs. Operating and support costs consist of those
   resources required to operate and support a system, subsystem, or a major
   component during its useful life in the operational inventory.

   Program. A program is an acquisition effort funded by research, development,
   test and evaluation or procurement appropriations, or both, with the express
   objective of providing a new or improved capability in response to a stated
   mission need or deficiency.




                                       11
Appendix C. Cost-Accounting Standards,
            Reporting Cost Information,
            Implementing a Cost-Accounting
            System, and Comptroller
            Responsibilities
   The following provides an overview on cost-accounting standards, reporting
   cost information, establishing and implementing a cost-accounting system, and
   Comptroller responsibilities concerning managerial cost accounting.

   Cost-Accounting Standards. The Statement of Federal Financial Accounting
   Standards (SFFAS) No. 4, “Managerial Cost Accounting Concepts and
   Standards for the Federal Government,” July 31, 1995, provides one accounting
   concept and five accounting standards for managerial cost accounting, which
   should be incorporated in the design of managerial cost-accounting systems.
   The original effective date of SFFAS No. 4 was for fiscal periods beginning
   after September 30, 1996; however, the effective date of SFFAS No. 4 was
   later deferred to September 30, 1997.

   Reporting Cost Information. The Chief Financial Officers Act of 1990 (CFO
   Act); the Government Management Reform Act (GMRA) of 1994; the
   Government Performance and Results Act (GPRA) of 1993; and the Office of
   Management and Budget (OMB) Circular A-127, “Financial Management
   Systems,” July 23, 1993, provide cost-information reporting policy.

           CFO Act. The CFO Act supports integration and modernization of the
   government’s financial systems and provides for development and reporting of
   cost information.

          GMRA. The GMRA expanded the financial statement reporting
   requirements of the CFO Act. It requires agencywide financial statements for
   each CFO Act agency, as well as audited financial statements for the entire U.S.
   Government.

         GPRA. The GPRA establishes strategic planning and performance
   measurement in the Federal Government and requires agencies to:

                 •   establish performance goals to define the level of performance
                     to be achieved by a program activity;

                 •   express such goals in an objective, quantifiable, and
                     measurable form;

                 •   briefly describe the operational processes, skills and
                     technology, and the human, capital, information, or other
                     resources required to meet the performance goals;



                                      12
              •   establish performance indicators to be used in measuring or
                  assessing the relevant outputs, service levels, and outcomes of
                  each program activity;

              •   provide a basis for comparing actual program results with the
                  established performance goals; and

              •   describe the means to be used to verify and validate measured
                  values.

       OMB Circular A-127. The Circular prescribes policies and standards
for executive departments and agencies to follow in developing, operating,
evaluating, and reporting on financial management systems. Those
requirements must be satisfied in setting requirements for managerial
cost-accounting systems.

Establishing and Implementing a Cost-Accounting System. The Clinger-
Cohen Act of 1996, formally, the Information Technology Management Reform
Act of 1996; the Federal Financial Management Improvement Act (FFMIA) of
1996; and the Federal Managers’ Financial Integrity Act (FMFIA) of 1982,
provide policy for establishing and implementing a cost-accounting system.

       Clinger-Cohen Act of 1996. This Act requires agencies to establish a
planning process for capital investments in information technology; encourages
interagency and Governmentwide acquisitions of systems; and, when
advantageous, the use of commercial off-the-shelf software. The Act also
authorizes chief information officers at the agencies and stresses integrated
information systems.

        FFMIA. The FFMIA mandates that agencies implement and maintain
financial management systems that comply substantially with Federal financial
management system requirements and applicable Federal accounting standards.
The FFMIA directs auditors, who perform financial statement audits, to report
on agency compliance. Agencies not in compliance are required to develop a
remediation plan.

        FMFIA. The FMFIA requires agency heads to establish systems and
controls that provide reasonable assurance that obligations and costs comply
with applicable laws; that funds, property, and other assets are safeguarded
against waste, loss, unauthorized use, or misappropriation; and that revenues
and expenditures are properly recorded and accounted for.

Comptroller Responsibilities. DoD Directive 5118.3, “Under Secretary of
Defense (Comptroller) Chief Financial Officer, Department of Defense,”
January 6, 1997, requires the Under Secretary of Defense (Comptroller) to
develop and maintain an integrated DoD accounting and financial management
system.




                                   13
Appendix D. Under Secretary of Defense for
            Acquisition, Technology, and
            Logistics Memorandum




                      14
15
Appendix E. Developing DoD Cost-Accounting
            Requirements
   The Under Secretary of Defense (Comptroller) plans to contract for developing
   DoD cost-accounting requirements in FY 2001 as the first step in developing
   and implementing a DoD cost-accounting system that meets Federal standards.
   Previously, the Under Secretary of Defense (Comptroller) contracted for an
   analysis of DoD cost-accounting capabilities and, annually, DoD prepares a
   Financial Management Improvement Plan to address DoD financial management
   operations, including the feeder systems that provide the majority of the data
   that finance and accounting systems use. Comparison of the DoD
   cost-accounting capabilities with the Financial Systems Improvement Plan
   indicated that DoD had not included the Military Departments’ OSMIS,
   VAMOSC, and AFTOC cost-accumulation systems in the Plan.

   DoD Cost-Accounting Capabilities Assessment. The Under Secretary of
   Defense (Comptroller) contracted with PricewaterhouseCoopers (PWC) to
   perform an analysis of the DoD cost-accounting capabilities. On December 14,
   1999, PWC issued a report, “DoD Cost Accounting Capabilities Assessment,”
   that included four components:

          •   identify DoD cost-accounting capabilities;

          •   identify options for implementing effective and compliant
              cost-accounting capabilities across the Department;

          •   identify a dollar range of estimates for implementing each proposed
              alternative; and

          •   provide a recommendation on how the Department should proceed.

   The report identified 49 different systems that PWC compared with defined
   cost-accounting requirements and DoD objectives. Although some systems
   exhibited strengths that could be leveraged into a cost-accounting solution in the
   opinion of PWC, no single system met all DoD cost-accounting needs or
   requirements. Generally, the systems examined did not meet SFFAS No. 4
   cost-accounting requirements. The report considered four options for
   implementing a DoD-wide, compliant cost-accounting system. The options
   considered were:

          •   consolidate the data elements in the various DoD systems into a
              central data warehouse, costing from $37 million to $185 million;

          •   use ABC to address strategic objectives, costing from $16 million to
              $503 million;




                                       16
                 •   select a migratory system for each Military Department to upgrade
                     into a compliant system that would meet DoD reporting needs;* and

                 •   upgrade DoD cost-accounting systems with the most efficient
                     capabilities, costing from $79 million to $259 million.

        The report estimated that the maximum cost estimate would be $947 million if
        DoD implemented the options together. Further, the report made some
        procedural suggestions on how to proceed and concluded that DoD lacked a
        consistent and integrated approach to providing cost-accounting information
        required to manage DoD operations.

        Financial Management Improvement Plan. In the “Fiscal Year 1998 National
        Defense Authorization Act,” Congress mandated that the DoD biennially submit
        a Financial Management Improvement Plan (the Plan), beginning in 1998. DoD
        publishes the Plan every year rather than every other year. The Plan includes a
        Concept of Operations that addresses the DoD financial management operations,
        including the feeder systems that provide the majority of the data that the DoD
        finance and accounting systems use. The Concept of Operations describes the
        systemic interrelationships and financial management and policy development
        responsibilities for several DoD organizations, including the Under Secretary of
        Defense (Comptroller) and the Under Secretary of Defense for Acquisition,
        Technology, and Logistics. The DoD organizations are to ensure that the DoD
        finance, accounting, and feeder systems and other information systems are
        designed, developed, maintained, and used effectively to provide reliable
        financial data for decision-making and financial reporting.

        The Concept of Operations has a DoD financial event process that links the
        DoD program management process and the DoD financial management process.
        Cost accounting is an element of the DoD financial management process. The
        DoD program management process functions of acquisition, personnel, cost
        management, property management and inventory management generate
        financial management information for DoD and feed the cost-accounting element
        of the DoD financial management process. The cost-accounting element collects
        and records cost for management to develop rates and pricing structures and
        managerial information for performance measurement to track, classify, and
        distribute costs to cost centers or activity groups.

        On March 19, 2001, the Inspector General, DoD, issued Report
        No. D-2001-085, “The 2000 DoD Financial Management Improvement
        Plan,” addressing the results of an overall assessment of the Plan, including
        compliance with the requirements of the National Defense Authorization Act
        for FY 2000, to determine whether the Plan had adequately identified the
        compliance status of financial management systems. The Report stated that the
        Plan was a valid attempt to develop a strategic framework that includes the DoD
        financial management concept of operations and describes the manner in which
        DoD intends to accomplish financial management operations in the future.
        However, the Plan was an evolving product that was prepared from a data call

*
 PWC made no cost estimate; however, it suggested that the option would be less costly than an upgrade
option.

                                                  17
rather than from information readily available to management, was not prepared
in a timely manner, and had yet to capture all required information. Further,
DoD did not fully comply with the requirements for the Plan included in the
National Defense Authorization Act for FY 2000. Consequently, the report
recommended, in part, that future Plans include procedures for developing and
implementing managerial cost-accounting systems for DoD.

Comparison of Cost-Accounting Capabilities with Financial Systems. For
the Financial Management Improvement Plan (the Plan) published in January
2001, the DoD Components were responsible for identifying all critical feeder
systems, ensuring that those systems comply with applicable financial system
criteria, and funding any upgrades required for their respective feeder systems.
We compared the systems listed in the Plan with the systems listed in the PWC
report, “DoD Cost Accounting Capabilities Assessment,” December 14, 1999,
and determined that DoD had not included the Military Departments’ OSMIS,
VAMOSC, and AFTOC cost-accumulation systems in the Plan. Consequently,
the DoD financial management operations do not include all of the feeder
systems that provide the majority of the data that the DoD finance and
accounting systems use.




                                   18
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Director, Acquisition Resources and Analysis
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
  Director, Accounting Policy

Department of the Army
Assistant Secretary of the Army (Acquisition, Logistics, and Technology)
Assistant Secretary of the Army (Financial Management and Comptroller)
  Director, Army Cost and Economic Analysis Center
Auditor General, Department of the Army

Department of the Navy
Assistant Secretary of the Navy (Financial Management and Comptroller)
Assistant Secretary of the Navy (Research, Development, and Acquisition)
Naval Inspector General
Deputy Chief of Naval Operations (Logistics)
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Acquisition)
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Assistant Secretary of the Air Force (Manpower, Reserve Affairs, Installations, and
  Environment)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Contract Management Agency
Director, Defense Logistics Agency

Non-Defense Federal Organization
Office of Management and Budget




                                          19
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         20
___________________________________________________________________



Defense Logistics Agency Comments




                             21
Audit Team Members
   The Acquisition Management Directorate, Office of the Assistant Inspector
   General for Auditing, DoD, prepared this report. Personnel of the Office of the
   Inspector General, DoD, who contributed to the report are listed below.

   Mary L. Ugone
   John E. Meling
   Jack D. Snider
   Neal J. Gause
   Kimberly L. Prioleau
   Jacqueline N. Pugh
